HHS/OIG-Audit--"Summary of Calendar Year 1991 Audit Activity At Colleges andUniversities, (A-01-92-04005)"
Department of Health
and Human Services
Office of Inspector General -- AUDIT
"Summary of Calendar Year 1991 Audit Activity At Colleges and Universities," (A-01-92-04005)
January 28, 1992
Complete
Text of Report is available in PDF format (2.85 MB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
This report summarizes the results of 898 audits in the college and university area performed or reviewed by the Office
of Inspector General during 1991. The primary focus of our audit work in this area was our continuing effort to ensure
that the Federal Government pay only its fair share of total research costs, both direct and indirect costs.